No. 19INTHE

hprttttt <t!nurt nf tlft lhtitth &tatts
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY INNOVATION LTD., and
MAX-PLANCK-GESELLSCHAFT ZUR FORDERUNG DER WISSENSCHAFTEN E.V.,

Petitioners,

V.

MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO MEDICAL LABORATORIES, and
MAYO CLINIC,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 1st day of October, 2019, all parties required to be served have been served copies
of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

�PN��

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

SERVICE LIST
JONATHAN ELLIOT SINGER
FISH & RICHARDSON, PC
12390 El Camino Real
San Diego, CA 92130
(858) 678-5634
singer@fr.com
JOHN CAMERON ADKISSON
ELIZABETH M. FLANAGAN
PHILLIP GOTER
DEANNA JEAN REICHEL
FISH & RICHARDSON P.C.
60 South Sixth Street, Suite 3200
3200 RBC Plaza
Minneapolis, MN 55402
(612) 335-5070
adkisson@fr.com
eflanagan@fr.com
goter@fr.com
reichel@fr.com

